2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

Legal Briefs
Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com
Web Site
www.cocklelegalbriefs.com

No. 21-213
NATHANIEL BORRELL DYER,
Petitioner,
v.
ATLANTA INDEPENDENT SCHOOL DISTRICT,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 13th day of October, 2021, send out
from Omaha, NE I package(s) containing 3 copies of the BRIEF IN OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were
plainly addressed to the following:
SEE ATTACHED
To be filed for:
BRANDON MOULA RD
Counsel of Record
NELSON MULLINS RILEY & SCARBOROUGH
LLP
201 17th Street NW, Suite 1700
Atlanta, GA 30363
Phone: 404-322-6000
Email: brandon.moulard@nelsonmullins.com
Counsel for Respondent
Atlanta Independent School District

Subscribed and sworn to before me this 13th day of.October, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-Slate of Nebraska
RENEE J. GOES
My Comm. Exp. September 5, 2023

Notary Public

'PI'

Affiant

41429

Nathaniel Dyer
202 Joseph E. Lowery Blvd., NW
Atlanta, GA 30314
404-964-6427
nate@natbotheedge.com
Petitioner Pro Se

